                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: A-04120076                                                                    Page 1 of 1       11
          On 17 December 2004, we received an allegation1that subjects l , 2 , and 32took an idea
          (intellectual theft) fiom the manuscript3written by other scientists and used it in their published
          paper.' The paper cited NSF support for the research.'

          Our review showed that the manuscript was first presented at a conference63 years before the
          paper was published. Further, no conference proceedings were ev&y published. We learned that
          the manuscript had been widely circulated to others prior to its subsequent submission for
          publication. However, the manuscript was not accepted for publication.7 We were informed that
          the manuscript was recently resubmitted for publication.

          We do not have an official copy of the original manuscript, making any comparison of ideas with
          the paper uncertain at best. Further, we do not know with whom the manuscript was shared and,
          as a consequence, who discussed the ideas contained in the original manuscript. Nor can we
          assess how the ideas were subsequently disseminated within the community over the 3 years
          between the preparation and sharing of the manuscript and the publication of the paper. We
          determined that there was no method to reasonably determine if there was any substance to the
          allegation of intellectual theft given the unavailability of the original document and the history of
          sharing of information over a 3 year period.

          This case is closed and no further action taken.




 NSF OIG Form 2 (1 1/02)
